Report No. DODIG-2013-056                    March 15, 2013




          Defense Hotline Allegations Concerning
     Contractor-Invoiced Travel for U.S. Army Corps of
       Engineers' Contracts W912DY-10-D-0014 and
                   W912DY-10-D-0024
                                INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500




                                                                          March 15, 2013

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Defense Hotline Allegations Concerning Contractor-Invoiced Travel for
         U.S. Army Corps of Engineers' Contracts W912DY-10-D-0014 and
         W912DY-10-D-0024 (Report No. DODIG-2013-056)

We are providing this report for your information and use. The DoD Office of Inspector
General initiated this audit (Project No. D2013-D000CF-0048.000) because of a
Government Accountability Office FraudNet Hotline complaint made in June 2011
regarding possible unallowable profit on travel costs being charged under the U.S. Army
Corps of Engineers (USACE) Worldwide Environmental Remediation Services (WERS)
contracts W912DY-10-D-0014 and W912DY-10-D-0024. We did not substantiate the
hotline allegation.

Audit Objective
Our overall objective was to determine whether the contractor’s invoiced travel
expenditures were allowable, reasonable, and allocable for task orders awarded against
the USACE WERS contracts. Specifically, we determined whether the contractor
charged profit on travel costs, an action that the contracts prohibit.

Background
The hotline complainant alleged that the contractor profited on travel costs, specifically
lodging costs, by negotiating firm-fixed-price (FFP) task orders using maximum per diem
rates for lodging but requiring employees to stay at hotels charging far less than the
maximum lodging rates. The complainant alleged that this practice resulted in the
contractor’s profiting on lodging costs, a process contrary to the contract terms of not
allowing profit on travel costs.

Federal Acquisition Regulation Provision and
Contract Requirement
Federal Acquisition Regulation 31.205-46, “Travel Costs,” allows a contractor to
negotiate travel costs at maximum Joint Travel Regulations per diem rates but does not
restrict the contractor from incurring less than that rate during the performance of the
contract.

Section A, paragraph 5, of contract W912DY-10-D-0014 states that travel costs are
limited to maximum per diem rates by the Joint Travel Regulations and that profit is not
allowed on travel costs. The hotline complainant stated that this language was inserted to
stop the contractor from profiting from travel costs. The USACE Huntsville contracting

                                            1
officer explained that this language was not related to the contractor but was included in
the solicitation to ensure that all contractors understood bidding requirements.

Hotline Allegation Not Substantiated
We did not substantiate the allegation that the contractor improperly realized profit on
lodging costs on the eight task orders awarded under contract W912DY-10-D-0014 and
one task order awarded under W912DY-10-D-0024:

   •   The contractor did not always propose lodging costs at maximum per diem rates.
       We identified that the contractor proposed discounted per diem rates for long term
       site visits in task orders 4, 5, and 6. In addition, on task order 3, we identified an
       instance in which the contractor proposed lodging at the maximum rate but
       invoiced for a much lower rate. This instance contradicted the allegation that the
       contractor always negotiated lodging at maximum per diem and kept the
       difference between the discounted rate and the maximum rate.

   •   The complainant stated that all work on contract W912DY-10-D-0014 was
       performed on FFP task orders. However, task orders 3, 4, and 6 included
       proposed travel costs on cost-plus-fixed-fee (CPFF) line items. We reviewed
       $48,456 of invoiced lodging costs on task orders 3 and 4 submitted by the
       contractor from September 2011 through October 2012 and found that the
       invoiced lodging costs were at or below the maximum per diem rates allowed by
       the Joint Travel Regulations.

   •   The contract did not require the contractor to provide detailed supporting
       documentation of travel costs to receive payment on the five FFP task orders
       (1, 2, 5, 7, and DA02),

   •   For task order CM01 under contract W912DY-10-D-0024, the contractor was a
       FFP subcontractor who did not identify travel costs on its invoices.

Scope and Methodology
We conducted this audit from November 2012 through March 2013 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective.

To determine whether we could substantiate the allegations, we visited the USACE office
in Huntsville, Alabama, that negotiated and awarded indefinite-delivery, indefinite-
quantity contract W912DY-10-D-0014 as well as seven of the eight task orders awarded
under that contract. The remaining task order was awarded by the USACE office in
Baltimore, Maryland. The obligated dollar value of the task orders and the administering
USACE offices for the task orders appear in the table on page 3.



                                             2
         Task Orders Issued Under W912DY-10-D-0014 as of November 2012
                     Task Order           Obligated Amount            USACE Office that
 Task Order No.         Type            (As of November 2012)       Administered Task Order
         1*             FFP                                    $0           Huntsville, Alabama
         2              FFP                        $43,348,378.45      Albuquerque, New Mexico
         3            FFP/CPFF                      $3,119,308.51           Huntsville, Alabama
         4            FFP/CPFF                     $15,402,368.00           Huntsville, Alabama
         5              FFP                         $5,460,010.54           Huntsville, Alabama
         6            FFP/CPFF                      $2,413,772.00           Huntsville, Alabama
         7              FFP                          $688,333.57            Huntsville, Alabama
        DA02            FFP                          $695,616.90            Baltimore, Maryland
        Total                                      $71,127,787.97
    *
     This task order obligated a minimum guaranteed amount of $10,000. USACE Huntsville
    deobligated the funds after the award of subsequent task orders.

We reviewed contract and task order files at the USACE Huntsville office and
interviewed USACE personnel who awarded and administered task orders issued under
contract W912DY-10-D-0014. In addition, we communicated with contracting personnel
and contracting officer’s representatives at the USACE offices in Baltimore, Maryland,
and Albuquerque, New Mexico. The documentation we reviewed consisted of the
following: requests for proposals; cost analyses; price negotiation memorandums;
proposals submitted by the contractor; indefinite-delivery, indefinite-quantity solicitation
and contract; task orders; modifications; and invoices submitted by the contractor. We
interviewed the contracting officer, program manager, and contracting officer’s
representatives.

We also contacted the USACE office in Sacramento, California, which administered task
order CM01 under contract W912DY-10-D-0024 to obtain and review invoices and
travel vouchers submitted by the contractor. The contractor in question was a FFP
subcontractor on task order CM01 under contract W912DY-10-D-0024. USACE
Sacramento personnel contacted the prime contractor to obtain the subcontractor
invoices, but the invoices did not identify travel costs.

Use of Computer-Processed Data
We used computer-processed data from the Electronic Document Access system to
identify the contracting office and to obtain contracts W912DY-10-D-0014 and
W912DY-10-D-0024 and task orders issued under those contracts. We verified the
information obtained from the Electronic Document Access system to the USACE
contract files. We determined that data obtained through this system was sufficiently
reliable to accomplish our audit objectives.

Prior Audit Coverage
No prior audits were conducted related to our audit objectives during the past five years.




                                               3
You can obtain information about the DoD OIG from DoD Directive 5 106.01, "Inspector
General ofthe Department ofDefense," April13, 2006, change 1, September 25, 2006;
DoD Instruction 7600.02, "Audit Policies," April27, 2007; and DoD Instruction 7050.3,
"Access to Records and Information by the Inspector General, Department of Defense,"
April24, 2000. Our Web site address is www.dodig.mil.

We appreciate the courtesies extended to the staff. If you have any questions, please
contact me at (703) 604-9077 (DSN 664-9077).




                                         )~
                                                                   /)II?
                                          ~                      tA·~w~
                                              Jacq line L. Wicecarver
                                              Assistant Inspector General
                                              Acquisition and Contract Management




                                              4
